<html>
<title> - [H.A.S.C. No. 114-91] CARRIER AIR WING AND THE FUTURE OF NAVAL AVIATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-91]

           CARRIER AIR WING AND THE FUTURE OF NAVAL AVIATION

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 11, 2016

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  
  
                                     ______
  
                           U.S. GOVERNMENT PUBLISHING OFFICE 
  
  98-958                         WASHINGTON : 2016 
  -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                            Washington, DC 20402-0001
                          
  
  
  
  
  
  
  
  
  
  
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Cropsey, Dr. Seth, Director, Center for American Seapower, Hudson 
  Institute......................................................     2
Horowitz, Dr. Michael C., Associate Professor of Political 
  Science, University of Pennsylvania............................     4
Rubel, Robert C., Professor Emeritus, U.S. Naval War College.....     7

                                APPENDIX

Prepared Statements:

    Cropsey, Dr. Seth............................................    25
    Courtney, Hon. Joe...........................................    23
    Forbes, Hon. J. Randy........................................    21
    Horowitz, Dr. Michael C......................................    41
    Rubel, Robert C..............................................    58

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
           CARRIER AIR WING AND THE FUTURE OF NAVAL AVIATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Thursday, February 11, 2016.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today the subcommittee meets to discuss the 
carrier air wing and the future of naval aviation.
    We have got a distinguished panel of guests, and they 
include Dr. Seth Cropsey, the Director of the Center for 
American Seapower, Hudson Institute; Dr. Michael C. Horowitz, 
the Associate Professor of Political Science, the University of 
Pennsylvania; and Professor Robert Rubel, Navy War College.
    The distinguished witnesses that are here today have done 
so much to help in furthering this debate and discussion 
throughout the years and we welcome you and we are so glad to 
have you today.
    The subject of our hearing today is the carrier air wing 
and the future of naval aviation. And I don't want for our 
discussion today to be focused on the past. We want it focused 
on the future. But we also have to look at where we have come 
in the past and some present realities.
    Because of the shortness of time that we have and the fact 
that they are going to call votes perhaps at any time, we are 
going to dispense with our opening comments. I think Mr. 
Courtney has agreed to do the same. We will have those 
submitted for the record.
    We are going to go right to your opening statements. I told 
you at the beginning that we could have votes in the interim. 
If so, we will have to excuse ourselves, take a recess, go cast 
those votes and then come back.
    So, with that, if Mr. Courtney has no comments that he 
would like to make, then, Mr. Cropsey, since you are sitting on 
the side that you are sitting on, we assume that you are going 
to start us today. And we welcome you here and look forward to 
your opening remarks.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 21.]

 STATEMENT OF DR. SETH CROPSEY, DIRECTOR, CENTER FOR AMERICAN 
                   SEAPOWER, HUDSON INSTITUTE

    Dr. Cropsey. Thank you, sir.
    Mr. Forbes. By the way, all of your written testimony will 
be submitted for the record, without any objection.
    Mr. Cropsey.
    Dr. Cropsey. Chairman Forbes, Ranking Member Courtney, and 
the distinguished representatives gathered here today, thank 
you for the honor of asking me to appear before this committee.
    I have been asked to testify on the future of naval 
aviation and the carrier air wing specifically, with a focus on 
unmanned systems.
    The testimony that I have offered for the record is divided 
into four parts. I will summarize them very briefly. I have 
looked at the evolution of the carrier air wing from 1980 until 
today. I discuss gaps in the modern air wing. I elaborated on 
the role that unmanned systems could have in the air wing. And 
I made broader recommendations about the structure of the air 
wing and the carrier platform.
    I would like to emphasize that without a discussion of 
strategy, the comments offered here are speculative exercises, 
useful perhaps, but disconnected from the broader strategic 
ideas that ought to govern U.S. and allied security.
    The U.S. has not faced such a diverse and dangerous group 
of threats since the end of the Cold War. At the high end, 
Chinese and Russian military capabilities can challenge 
American power globally as they have not in the past, or at 
least in the recent past for one of them.
    Low-end threats like ISIS [Islamic State of Iraq and Syria] 
and similar insurgencies cannot destroy U.S. power, but can 
undermine regional stability or worse.
    Hybrid adversaries, particularly Iran, employ a mix of 
conventional and insurgent assets to harass American forces and 
exploit critical vulnerabilities.
    And I won't go into history here because I think I have 
handled it in the written remarks. But what we are looking at 
today is not unique, is not new. Great maritime powers have 
always experienced problems that overlapping threats present. 
Britain serves, I think, as the best example.
    On the eve of World War I, First Sea Lord Jackie Fisher and 
First Lord Winston Churchill had to counter the powerful 
Kaiserliche Marine in the North Sea at the same time defending 
British shipping around the world against commerce raiders and 
submarines.
    To remedy this strategic problem, Admiral Fisher's so-
called ``scheme,'' as it was termed at the time, marshaled 
heavy dreadnought battleships for major fleet engagements 
against the Germans in the North Sea, along with fast 
battlecruisers which were intended to destroy commerce raiders. 
Combined with smaller destroyers from other escorts, this mix 
of ships was designed to engage in major oceanic battles, at 
the same time protecting British shipping around the world.
    Without such focused, strategic ideas, analysis and 
recommendations about weapons systems or conglomerations of 
them don't count as much.
    Since its earliest days, naval aviation in the United 
States has always been defined by a diversity of platforms. The 
carrier platform, with the limitations it imposes on fuel usage 
and weight, has always required aircraft designers to create a 
diverse number of platforms.
    Two factors have shaped the modern carrier air wing: aerial 
refueling and sustainable ISR [intelligence, surveillance, and 
reconnaissance] platforms. Aerial refueling extended the range 
and flight time of the carrier air wing, allowing it to remain 
on-station longer and patrol more airspace. This became 
critically important for long-range interceptors and fighter 
aircraft, since these platforms could now be designed with less 
of a mind to range since range-extending aircraft could be 
placed aboard the carrier.
    Dedicated airborne early-warning platforms began to enter 
the fleet in the 1960s and that allowed the carrier air wing to 
monitor even more airspace.
    Bringing us up to more recent history, the 1980s carrier 
air wing was the pinnacle of naval aviation diversity. 
Specialized strike, ISR, air-to-air and anti-submarine warfare 
aircraft gave the fleet the ability to respond to the Soviet 
threat on all levels. Unfortunately, budget cuts and a self-
enforced ideology of one interpretation of jointness have 
forced a decline in diversity in the modern air wing.
    Multi-role platforms, like the Hornet and Super Hornet, 
replaced mission-specific aircraft such as the A-6 and the F-
14. The carrier also lost its organic tanking capability, 
forcing Navy to rely on Air Force tankers, to a certain extent, 
launched from potentially vulnerable ground targets.
    This state of affairs is untenable considering the anti-
access threats the U.S. faces today. China, Russia, and Iran 
have created an overlapping access-denial network supplemented 
by insurgent groups in critical regions.
    Unmanned systems can greatly improve the carrier air wing's 
efficacy by filling critical gaps in tanking, in ISR, and 
strike capability.
    In the immediate future, U-class [unmanned] programs could 
be focused on creating a viable carrier-based tanker 
considering the advantages that an unmanned platform has over a 
manned tanking platform. The Navy could also benefit from 
longer loiter time of current unmanned systems and use them to 
amplify ISR and strike/sea control capabilities.
    Finally, the Navy would benefit from, I believe, a broad 
effort to re-diversify the air wing. It would benefit from 
developing a new manned airframe for air-to-air combat, along 
with creating a low-end platform to perform cheaper strikes 
against long-term insurgency groups, for example.
    The Navy might also consider increasing the size of the 
carrier air wing to its nominative, its intended strength of 80 
or more aircraft, rather than under-equipping each deployed 
carrier strike group.
    Finally, the Navy would benefit, I believe, from 
considering the creation of other platforms to perform 
consistent strikes against insurgencies. Small carriers might 
be added, not in place of, but in addition to large-deck 
carriers as part of this approach, along with low-cost strike 
aircraft.
    Naval aviation is the cornerstone of the U.S. Navy and, by 
extension, the back power of American seapower globally. The 
Navy is taking steps to integrate unmanned systems into the air 
wing. Focusing on these will improve diversity and the overall 
efficacy of manned and unmanned platforms.
    Nevertheless, as I said at the beginning, without a proper 
strategy, no procurement, operational doctrine or development 
project can really preserve the American-led international 
order.
    Thank you for your patience.
    [The prepared statement of Dr. Cropsey can be found in the 
Appendix on page 25.]
    Mr. Forbes. Dr. Cropsey, thank you.
    Dr. Horowitz.

 STATEMENT OF DR. MICHAEL C. HOROWITZ, ASSOCIATE PROFESSOR OF 
         POLITICAL SCIENCE, UNIVERSITY OF PENNSYLVANIA

    Dr. Horowitz. Thank you, Chairman Forbes, Ranking Member 
Courtney, other members of the subcommittee and staff and 
guests here today for the invitation to testify before you. It 
is a real honor to be here to speak about the vital importance 
of the carrier air wing and the challenges it faces.
    America's global reach relies in no small part on naval 
aviation and the carrier air wing. Yet because of long 
procurement timelines and moves by potential adversaries, the 
decisions made in the next several years, in just the next few 
years, will be critical. The United States cannot rest on its 
laurels in the carrier domain.
    In what follows, I will very briefly describe the rising 
threat to the carrier and then three areas where I think this 
committee can work with the Navy to try to move the carrier 
forward to sustain it as a critical part of the Navy into the 
middle part of the 21st century.
    We all know that America's aircraft carriers are 
increasingly vulnerable. From China's development of an anti-
ship ballistic missile to the proliferation of anti-ship cruise 
missiles, like the SSN-22, the risk to U.S. aircraft carriers 
is arguably as large as it has ever been since our carriers 
were actually out there fighting in the Second World War.
    Add to this advances in air-to-air missiles by China, 
including the PL-15, and the carrier air wing itself is 
increasingly at risk. And the history of military innovations 
demonstrates that established powers using established 
technologies must continually innovate to keep up.
    The dawn of the carrier age itself is an example of this. 
The British, who had dominated naval warfare before with the 
battleship, viewed the aircraft carrier as a spotter, something 
to help find adversary ships. This demonstrates the kind of 
failure of imagination that is crucial for the United States 
Navy to avoid. By taking seriously these threats to the carrier 
itself, and the carrier air wing, Congress and the Navy can 
work together to preserve the role of carrier aviation in U.S. 
power projection capabilities to assure that what happened to 
the British will not happen to the United States Navy.
    And here are three areas where I think the United States 
Navy could invest and I hope this subcommittee will promote to 
help ensure that the carrier air wing remains a strong and 
vital part of U.S. military power.
    The first is increasing America's investment and the Navy's 
investment in munitions. One way to ensure the continued 
strength of carrier aviation is extending its range. Range in 
this space can mean two things, the range of the airplanes that 
launch from the carriers----
    Mr. Forbes. Dr. Horowitz, I am sorry to interrupt you, 
could you just make sure your microphone is on. And maybe if it 
is not, get a little closer.
    Dr. Horowitz. Sorry.
    Mr. Forbes. That is okay, thank you.
    Dr. Horowitz. One way to ensure the continued strength of 
carrier aviation is extending its range. Range in this case 
could mean two things: increasing the range of the airplanes 
launching from the carrier or increasing the range of the 
munitions that those planes carry.
    But for a variety of bureaucratic and budgetary reasons, it 
is often easy to under-invest in munitions, not buying enough 
and not investing enough in research and development for the 
next generation.
    There is good news in this area. The Navy's development of 
the Long-Range Anti-Ship Missile, something this committee has 
supported, will critically extend the range of the weapons 
launched from current carrier aircraft. But advanced munitions 
are expensive. One estimate suggests that the Long-Range Anti-
Ship Missile [L-RASM] may cost $2 million per missile.
    That is money well spent, but Congress and the Navy should 
think about ways to reduce the unit cost of advanced munitions. 
One way to reduce costs is through larger buys that generate 
economies of scale, but another is to consider next-generation 
systems that might employ more off-the-shelf commercial 
technology to take advantage of growth in robotics and related 
fields.
    The Navy could consider harnessing developments in swarming 
technology, to give just one example, to develop lower-cost 
munitions where the target is destroyed not by a single 
munition that escapes detection, but through overwhelming 
adversary defenses through mass.
    The second area I think this committee should push the Navy 
to invest in more is unmanned or uninhabited systems. The move 
by the Navy to convert the U-class system into a tanker might 
be a good-news story. It will be a good-news story if that 
tanker allows the Navy to experiment with unmanned systems on a 
carrier, paving the way for a more advanced, armed platform in 
the future. This would be a really good-news story.
    It won't be a good-news story if rather than being a bridge 
to the future of combat aircraft the purchase of an unmanned 
tanker represents a shift away from thinking about uninhabited 
systems for carrier-based, deep-strike missions.
    If the Navy lacks the bureaucratic appetite to invest 
heavily in next-generation systems, it could increase the 
structural risks to carrier aviation over the long term. Due to 
their ability to loiter, the fact that they are not limited by 
human endurance, and that they can operate in more dangerous 
missions where American pilots might be at risk, there are 
several advantages to having unmanned platforms in deep-strike 
missions.
    There is good evidence that suggests that senior leadership 
of the Pentagon gets it, from the Third Offset Strategy that 
Deputy Secretary Work has advocated to Secretary Carter's 
preview calling for the potential of microdrones and swarms, 
there is a lot to like. But this will require close monitoring, 
especially with a new administration entering next year.
    Finally, given these changes in the threat environment, it 
is worth at least thinking about whether investing in a small 
number of large aircraft carriers should remain the optimal 
path for the United States Navy over the next generation.
    The old aphorism about not putting all of your eggs in one 
basket is potentially appropriate here. It may make sense to 
diversify risk. One path forward might involve investing in 
some number of smaller aircraft carriers.
    Though the air wing would be smaller in number than the 
current Ford-class aircraft carriers the Navy is building, it 
might be possible to extend the capabilities of such platforms 
by leveraging uninhabited systems or leveraging the potential 
for what is called manned/unmanned teaming or quarterbacking 
where one advanced U.S. Navy aircraft would work together 
quarterbacking several remotely piloted airplanes. It is a way 
to leverage the investment that the United States has already 
made and use the aircraft that the United States Navy has 
developed over the last generation.
    This will be very difficult for the Navy. The Navy is the 
best in the world because of its carriers and because of the 
carrier air wing. But as the Navy's original investments in 
naval aviation and the carrier in the interwar period show, 
there is no innovation incubator like the United States Navy 
when it puts its mind to it.
    And that is something that I hope that this subcommittee 
will continue pushing the Navy on to ensure that the carrier 
air wing remains a vital part of the 21st century Navy.
    Thank you.
    [The prepared statement of Dr. Horowitz can be found in the 
Appendix on page 41.]
    Mr. Forbes. Thank you, Dr. Horowitz.
    And Professor Rubel, we are going to have to wait until we 
get back. Fortunately, Speaker Ryan now has made sure that we 
are there within the 15-minute mark, so we don't want to take a 
chance of anyone missing votes.
    So, with that, we will recess until the conclusion of votes 
and then we will begin again.
    Thank you.
    [Recess.]
    Mr. Forbes. Gentlemen, thank you for your patience during 
those votes. And when we left, I think we had Professor Rubel 
up next. So, Professor, thank you for being with us and we look 
forward to your opening thoughts.

 STATEMENT OF ROBERT C. RUBEL, PROFESSOR EMERITUS, U.S. NAVAL 
                          WAR COLLEGE

    Mr. Rubel. Thank you, Congressman.
    Mr. Chairman and distinguished members of the Seapower and 
Projection Force Subcommittee of the House Armed Services 
Committee, it is a distinct honor and privilege to be called to 
testify as a witness on the future of naval aviation, just as 
it was to be a practicing naval aviator for the first 20 years 
of my 48-year Navy career, 30 of which were Active Duty.
    You have read my written testimony that lays out my 
concerns about the readiness of naval aviation to deal with the 
challenges that are emerging.
    In my view, the Navy cannot continue to deploy and operate 
as it has since the end of World War II. A combination of 
rising naval competitors and reduced budgets force a 
fundamental rethinking of both force structure or, as Admiral 
Richardson, the current CNO [Chief of Naval Operations] puts 
it, fleet design, and operational doctrine. This will be a 
difficult process for a Navy that has been accustomed to 
unchallenged supremacy for the past 25 years.
    Among other things, I advocate relieving the carrier force 
from routine presence duty so that the Navy can develop 
doctrine and training for a concentrated carrier force that can 
provide adequate warfighting capabilities in the face of new 
threats.
    The need to shift from a dispersed, constabulary posture to 
a warfighting posture was described by our foremost naval 
theoretician Alfred Thayer Mahan in 1911 as he observed the 
naval arms races occurring in Europe. A concentrated fleet was, 
at that time, needed to support the Monroe Doctrine, the 
central U.S. strategic policy of the day. Concentration was 
needed for two purposes: deterrence and response.
    Today, we observe a certain rhyming of history, rising 
naval powers forcing the U.S. Navy to consider military 
concentration vice constabulary dispersion. However, in today's 
world, the constabulary function is still critical to the 
execution of U.S. strategy.
    The Navy must deploy where needed to cultivate the global 
maritime partnerships to bolster maritime security, to reassure 
allies and friends, and generally defend the global system of 
commerce and security.
    Whereas up to now this presence function could be performed 
by most any kind of unit, today the need is for units that 
possess credible war-at-sea capabilities in order to deter and 
disrupt regional aggression and constitute a viable crisis 
response force. The embryonic concept of distributed lethality 
holds promise for creating this kind of force.
    If the Navy is able to constitute such a force and keep the 
carriers substantially in reserves, new approaches to the 
design of air wings become possible. I outline some 
illustrative ideas in my full testimony statement.
    I believe the Nation needs to invest more in its Navy than 
currently. But even if funds become available, fleet design 
should change along the general lines I advocate. Doing so will 
reduce strategic risks by allowing the Navy to harmonize 
tactical and operational risks with the stakes involved in any 
particular crisis by avoiding placing the national command 
authority in an all-or-nothing situation.
    I believe in the continuing strategic utility of aircraft 
carriers, but they must be used differently than in the past 
because geopolitical conditions have changed. I urge the 
Congress to support Admiral Richardson as he undertakes the 
difficult job of putting the Navy's rudder over and steering a 
course for change.
    Thank you, sirs.
    [The prepared statement of Mr. Rubel can be found in the 
Appendix on page 58.]
    Mr. Forbes. Thank you, Professor.
    I am going to defer my questions until the end.
    So, I would like to recognize Mr. Courtney now for any 
questions that he might have.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to all the witnesses for, you know, really 
great, thoughtful, stimulating testimony. And again, as we are 
about to embark on the budget process, the timing is perfect. 
And again, you know, your written comments obviously are going 
to be made part of the record and circulated to all the 
members.
    Again, there is a lot to sort of ask questions about. I 
guess one I wanted to start with, Captain Rubel, you know, 
trying to visualize your concluding remarks about sort of 
moving away from a constabulatory role to a more concentrated 
use of the carriers and then distributed lethality to sort of 
fill the constabulary function.
    You know, there has been a lot of heartburn over the last 
couple of years or so about carrier gaps, you know, in terms of 
not being out there in different parts of the world where, you 
know, people have kind of grown accustomed to their presence. I 
guess, you know, that is--I wonder if you could just sort of 
elaborate a little bit more in terms of how you visualize the 
distributed lethality that would sort of reassure our allies 
and, obviously, you know, protect our national interests.
    Mr. Rubel. It is a challenge. The carrier is sometimes 
referred to as an iconic ship type. That is, it is not only its 
size and advanced capabilities, but also its reputation from 
World War II on give it a status in the eyes of not only 
American citizens, but citizens around the world, so that when 
one of those things shows up, it means something.
    The intangibles involved in that must be overcome as we 
work to substitute other types of forces for the carriers. I 
see the distributed lethality force as consisting of cruisers, 
destroyers, and other types of ships. Whether the LCS [littoral 
combat ships] will work out as part of that or not, I don't 
know. But our amphibious forces, those are big ships. If we 
pack them with lots of missiles and advertise the fact and use 
exercises, live-fire demos, et cetera, and work the public 
relations part of it in tandem with the development of these 
new types of forces, I think we can get there.
    It seems to me we don't have much of a choice. I don't see 
us going beyond 11 carriers. Maybe we can, but if we can't 
there aren't enough carriers to maintain presence like we are 
used to, providing presence around the world, so something has 
to give. Right now it is creating these unplanned gaps, which 
is a strategically risky way of doing business.
    The United States has a well-founded grand strategy, I 
believe, of maintaining a law-based world order and a free 
market, liberal trading economy globally. That kind of system 
requires security, it requires comprehensive security, and the 
Navy has to be out there with something. If we don't have 
enough carriers to do it, we have to do it with something else.
    We might as well develop something that allows us to take 
the pressure off the carrier force and constitute a force, a 
warfighting force that will truly deter China, Russia, or 
whoever.
    Mr. Courtney. Thank you.
    Dr. Horowitz, again, you talked about the U-class sort of 
steps, you know, the stepped-up approach that it appears that, 
you know, the Navy is pursuing, starting with the tanker 
function, but you obviously were pretty adamant that, you know, 
we can't just sort of stop there and that we have got to 
really, you know, enhance that technology to take it to a 
higher level.
    In terms of a timeline, you know, how do you sort of see 
that, you know, stepped-up use of unmanned aircraft as far as, 
you know, trying to achieve the goals that you laid out?
    Dr. Horowitz. Thanks for your question. This area, the 
intersection of robotics and military technology, is one where 
the technology is advancing quickly. And one of the biggest 
challenges, I think, for the United States military as a whole 
in this category, to back up a little bit, is how long our 
procurement timelines, you know, are.
    I mean, like, you know, we could have a whole different 
discussion about the acquisition system, but I think if you 
want to identify a risk point in the strategy that has been 
identified in the budget, from my perspective, it would be that 
it takes so long to actually acquire and deploy this tanker and 
then so long to use it and feel comfortable with it, so that it 
is, you know, 25 years later and we still really haven't made 
progress.
    In some ways, the early discussions about what the next-gen 
[generation] naval fighter look like might be illustrative for 
understanding the direction that the Navy wants to move in.
    You know, Secretary Mabus made the comment last year, I 
believe, that the F-35 was likely to be the last manned naval 
fighter. And the rubber will meet the road when the Navy starts 
thinking about their plans for what the next-generation fighter 
looks like. That, I think, will be a really key decision point 
in ensuring that the Navy remains on the right track.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. Well, thank you.
    And I apologize for missing your testimonies.
    Dr. Cropsey, here I am. I am on record as saying we need a 
12th carrier. Can you talk to us about how many carriers we 
actually need? Is that pie in the sky? I know that may be a 
little bit aspirational, but can you talk to us about, from 
your perspective, what that would do for today's Navy or 5 
years from now maybe when we actually got that 12th carrier in 
the water?
    Dr. Cropsey. Thanks for the question.
    Mr. Forbes. Dr. Cropsey, do you have the mike on?
    Dr. Cropsey. Yes, I do, sir.
    Mr. Forbes. Okay, that is all right. Sometimes you have to 
keep it up----
    Dr. Cropsey. I need to talk louder. His point about 
carriers meaning something is right, I agree with that. He is 
absolutely right. They mean ISR, they mean strike, they mean 
sea control, they mean anti-submarine warfare.
    I also think that it is correct that one carrier in each of 
the areas of contention, as we have today, is insufficient now 
and will become more insufficient in the future and does not 
include the Mediterranean.
    So, it seems to me that we limit ourselves and we limit our 
capabilities and ultimately we limit our security by looking at 
this in terms of what can we afford. The question is, what do 
we have the will to do and what must be done?
    Before John Maynard Keynes, the idea of government spending 
going into debt was anathema to the rulers of Britain, the 
aristocracy, to the House of Commons. And when they looked at 
the cost of the Second Boer War, they realized that the sinking 
fund, which was meant to pay off limited debt, was not going to 
be sufficient and that they were really in the red in a way 
that horrified them. And they made changes in their Navy that 
started them on the path toward where they are today with 19 
surface ships.
    I am afraid that if we think of the number of carriers in 
those terms, we will find ourselves in the same position in the 
future, which is why I think that we need something like 16 
carriers, a number of ships that would allow them to operate 
together, and that would also require being able to integrate 
carrier operations, and a number of ships that would allow us 
to once again be present in force in the Mediterranean. 
Consider what is happening as we have left, look at what China 
and Russia are doing, and you know that.
    Mr. Conaway. Let me ask this question. I am currently 
reading a book about the First World War in the start and it is 
talking about the way the armies of the Germans and the Austro-
Hungarians and Russians continued to train cavalry troops. They 
would finish up all of their exercises with a mass cavalry 
charge, sabers drawn, flags flapping, wonderful, grandiose kind 
of things. Are we at risk of clinging to a carrier concept much 
like the other outdated weapon systems have, you know, gone 
that direction? Are we at a point or at risk at all of 
something like that going on where we just look really foolish 
trying to cling to a weapon system like that?
    Dr. Cropsey. I think we are always at risk of something 
like what you are saying. That is a reasonable question. I 
think that it would be that the argument against carriers and 
the specific argument against carriers in the future would be 
greatly strengthened by showing that there is an alternative 
that can perform those functions that well.
    And when I see that, then I will be convinced more than I 
am now that the risk you talk about is a real one.
    Mr. Conaway. Thank you, Mr. Chairman. Yield back.
    Mr. Forbes. Mr. Johnson is recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Horowitz, while fifth-generation capabilities are 
critical in missions involving high-end threats in an anti-
access area-denial environment, they are just as important in a 
low-threat environment, like Afghanistan today. The F-35C has 
capabilities that exceed the current air wing aircraft, such as 
the ability to carry over 30 percent more ordnance and having 
around 50 percent more on-station time in a close-air-support 
mission.
    In addition to the fifth-generation capabilities of 
stealth, sensor fusion, combat identification and network 
connectivity, do you see these weapons' long range and on-
station time capabilities important in protecting our men and 
women on the ground?
    Dr. Horowitz. Thank you for your question. I think that the 
roll-out of an effective F-35 throughout the fleet is vital for 
American naval power over the next generation. We can have, and 
a professor like me might be willing to engage in, an academic 
debate about an alternative. But where we are now, it is 
crucial that the F-35 is made to work and deploys. Because I 
think you are absolutely right that in Afghanistan, in many of 
these different scenarios around the world, some of which are 
not the highest-end combat situations, the capabilities that 
the F-35 will bring to the table are important.
    And I would say that is also a reason why I think I have 
emphasized the necessity of investing in next-generation 
munitions, because the platform, in some ways, is only as good 
as what it is firing at the end of the day. You know, the 
airframe is a means to an end. The means to the end in some 
cases might be surveillance, and in some cases it might be 
strike.
    And one way, to the extent that the F-35 has some 
limitations, to try to help it be better in some ways, is to 
give it better munitions to work with.
    Mr. Johnson. Mr. Rubel, do you have anything to add?
    Mr. Rubel. The F-35 will bring key capabilities to the 
fleet, there is no doubt. I mean, it is the only game in town 
right now and it needs to work.
    We should not ignore the capabilities of the F-35B. The 
Marine Corps model will revolutionize the capabilities of the 
10 big-deck amphibious ships we have, essentially, if we choose 
to do so, turning them into light aircraft carriers. There is 
really no comparison between the F-35B and the AV-8 Harrier.
    And so it creates a lot more possibilities for both the 
Navy and the Marine Corps having that airplane aboard those 
vessels.
    Mr. Johnson. Thank you.
    Dr. Cropsey.
    Dr. Cropsey. Congressman, did I understand correctly that 
your question applied also to low-end missions?
    Mr. Johnson. Yes.
    Dr. Cropsey. Yes. Well, sir, I don't think that if the 
danger that you face on a camping trip is a grizzly bear that 
you should bring a 105 mm howitzer along with you. You can 
protect yourself with less. And the F-35, I do not disagree 
with my colleagues here about its effectiveness. I have had 
some questions about its radar cross-section and some questions 
about its usefulness as an air-to-air platform.
    But I don't have a lot of questions about its applicability 
to, for example, ISIS. It doesn't seem to me as though that 
makes sense. If the target is an ISIS convoy, do we need a 
platform as advanced and as sophisticated as the F-35? I don't 
think so.
    Mr. Johnson. And what would be the alternative?
    Dr. Cropsey. Well, for example, the old OV-10, the 
observation plane which can land on aircraft carriers, can 
carry ordnance, it is a good design, low speed. Why are we 
using such an expensive and powerful platform against such a 
relatively small target?
    Mr. Johnson. What do you say, Dr. Horowitz?
    Dr. Horowitz. My concern is that I am not sure we have a 
choice, given the current procurement plans of the Navy. And I 
think the F-35 is, as I think my colleague said, perhaps, you 
know, the only game in town for those kinds of missions.
    I agree that it would be better if there was a lower-cost 
option that we could use to deliver strikes in cases where the 
full range of capabilities of the F-35 are not needed. But 
given current procurement plans, the F-35 will be necessary.
    Mr. Johnson. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Johnson.
    Dr. Cropsey, the Navy seeks to decommission the 10th 
carrier air wing in the President's budget for this year. But 
the fiscal year 2012 NDAA [National Defense Authorization Act] 
directs the Secretary of the Navy to ensure that the Navy 
maintains a minimum of 10 carrier air wings and for each such 
carrier air wing a dedicated and fully staffed headquarters.
    How do you see the decommissioning of the 10th wing? Would 
that be running counter to the law? And do you think it is a 
good idea to decommission one of our carrier air wings?
    Dr. Cropsey. I think you are, Mr. Chairman, in a better 
position to answer the question about whether it runs counter 
to the law.
    On the question of the advisability of the idea, I think it 
is another of the salami slicing that the Navy has been forced 
to and has chosen to do over the past 10 to 15 years. And the 
way I look at it is that the more slices you take away from the 
salami, the less salami you have left.
    So, this strikes me as an ill-advised idea and one that 
will not improve the carrier air wings as a whole or naval 
aviation's capability. It is very simple. We keep on reducing 
like this and we keep on talking as though the constraints that 
we are looking at right now are absolute ceilings, we are going 
to end up as the British did. That is a certainty.
    Mr. Forbes. Dr. Horowitz, you mentioned earlier that you 
believed we should be looking at a smaller-type aircraft 
carrier. The Navy has testified before to us that they have 
examined that and over and over again come back with the 
conclusion that we should not, that we should stay with the 
size that we have.
    There is some discussion, and I know Professor Rubel has 
even talked about, that we may be moving away from what we have 
seen of late for our carriers, which is to provide strike 
capacity to land targets, and they may actually be involved in 
warfare at sea, which would require us to have more planes 
coming together.
    What advantage do you think the smaller aircraft carrier 
would have, given the fact that you would still need the same 
platforms to defend the small carrier as you would a large 
carrier and it may necessitate having to have more small 
carriers to get that kind of mass of planes together?
    Dr. Horowitz. That is a great question. And I think that 
the potential value of small carriers lies, in part, in the way 
that it will help the Navy diversify risk. In a threat 
environment where the large carriers are not at risk of being 
essentially in naval combat, that it makes a lot of sense to 
have a small number of large carriers that act as mobile 
airfields for land-based strike more than anything else.
    But if losing ships becomes something that is possible in 
war once again, as it seems like it potentially is, given the 
changes in the threat environment, then from a strategy 
perspective, setting aside sort of cost efficiency and budget 
for a moment, a diversity through increasing the carrier fleet 
through some small carriers makes sense.
    I think the Navy is not wrong that it would certainly be 
expensive to do.
    Mr. Forbes. Professor Rubel, looking at all the roles 
unmanned carrier aircraft could fulfill, do you see the need 
for a single or multiple types of unmanned aircraft to perform 
the ISR, buddy tanker, and long-range strike missions? And how 
would you prioritize those missions?
    Mr. Rubel. As I outlined in my testimony, I do foresee the 
need for a range of different types of unmanned aircraft, 
ranging from a high-aspect ratio, in other words a long, 
straight, narrow wing that is optimized for high endurance and 
high altitude, to act as a relay, line-of-sight relay platform 
for the battle force network in case our satellites get taken 
out, and other ISR and miscellaneous duties; a low-aspect 
ratio, in other words a swept-wing, strike-fighter-like version 
that can be used for strike and especially air-to-air work; and 
then maybe a third type that would be the tanker, be the ASW, 
anti-submarine warfare, platform, do any number of other 
support duties around the carrier.
    So, just as we had a family of aircraft aboard the old 
carriers, I mean, when I started flying we had fighters, two 
types of attack aircraft, ASW aircraft plus helos [helicopters] 
plus the airborne early-warning airplane, we had a real variety 
of specialized aircraft, we should consider specializing our 
unmanned aircraft in a similar manner.
    Mr. Forbes. And Dr. Cropsey, given the fact that we are 
seeing the capabilities and capacities of China to produce and 
deploy anti-access weapons, including the DF-21, but obviously 
not limited to that one system, is it critical for our air 
wings to possess long-range, penetrating strike capabilities to 
maintain a credible deterrent? Or is that something that we 
should not necessarily be focused upon?
    Dr. Cropsey. I think we should definitely be focused on 
that. The likelihood is that China's DF-21 capabilities, once 
demonstrated, will find their ways into other parts of the 
world as well. So, this is not the only place where long-range 
penetration is going to be an issue.
    We might be able to solve that simply by tanking. I am not 
so sure of that. But I am much more certain that we will see 
this problem elsewhere. It will multiply. And as all of us have 
said here, this is where things are going and this is how 
things are changing. Nobody is going to let us amass a force 
next to their nation the way we did in Desert Storm. That was 
yesterday.
    Mr. Forbes. Gentlemen, we told you at the outset, too, that 
we wanted to give each of you a few minutes if you needed it to 
put anything else on the record that we perhaps haven't 
covered, that might be outside of the testimony that you 
offered. I would like to offer you that opportunity now.
    And Professor Rubel, maybe we will start with you. Anything 
else you have in summary for this afternoon?
    Mr. Rubel. The United States, one way or another, has to 
find a way to achieve strategic efficiency. In other words, our 
goals to maintain a law-based, liberal-trading, international 
order stays the same. But we are increasingly challenged by 
rising threats and deep national debt, so we are getting 
squeezed from two sides.
    To do this, we need to get more strategically efficient in 
all our operations. From the Navy's point of view, like I have 
outlined, we relieve the carriers of their station-keeping 
duties, substitute a distributed lethality force, I think the 
Navy can maintain its support for the national strategy with 
that kind of a three-tiered force, which I outline in my 
testimony, at a cost maybe not the same as now, the Navy's 
going to need augmentation of its budget, but at least an 
affordable cost for the United States.
    So, we simply have to think about the architecture of our 
fleet differently than we have been. Thank you.
    Mr. Forbes. Thank you.
    Dr. Horowitz.
    Dr. Horowitz. Thanks. And thank you again for the 
opportunity to testify before this subcommittee.
    I think that the United States Navy is facing something 
right now that it has proven historically to be incredibly 
hard, even for the best meaning militaries in the world to do, 
and that is to reinvent itself on the fly while you are the 
best in the world. And that is extremely challenging. And one 
of the areas where that will likely have to occur over the next 
generation is with the carrier air wing.
    I think that it is very fortunate that both through the 
advocacy of this subcommittee and the current leadership of the 
Pentagon that there is positive momentum for investing in next-
generation systems, particularly, but not limited to, the 
unmanned space that I think will be necessary for deep-strike 
capabilities in the next generation.
    But I think there is a real challenge, given the fiscal 
environment, in the next administration that will come up, and 
it will be crucial for this subcommittee to ensure that that 
administration understands this challenge as well.
    Mr. Forbes. Thank you, Doctor.
    Dr. Cropsey.
    Dr. Cropsey. I would also like to thank you again for the 
honor and opportunity to speak here.
    We have gone over the major points here about the carrier 
air wing, I think, to people's satisfaction. It needs to be 
more robust than it is. There need to be more planes on its 
decks. Restoring the diversity of the air wing is critical to 
the platform's capabilities to its future, extending the air 
wing's range, using drones as tankers, and then the follow-on 
steps that my colleagues have talked about, providing cheaper 
missiles, building them, integrated carrier operations, perhaps 
adding smaller carriers to the larger carriers of which I have 
said we need more, distributing lethality, increasing the naval 
budget.
    But I think that one of the most important things that this 
subcommittee has done and can do in the future is to tell 
people, tell your constituents, tell the country what this 
means, what are the stakes here.
    I don't like to use this term because I hope that it is not 
true, but I fear that we as a nation are becoming sea blind and 
that what was known very well by Army generals and merchants 
and naval, obviously, people in the Navy at the beginning of 
the republic has been lost and is just not understood anymore 
and our reliance on strong seapower forces, our reliance on 
increasing globalized seaborne trade, that these are all 
subjects that are a little bit over the horizon for most 
people.
    And I think that you play an extremely important role, not 
only by your advocacy of seapower, but in your ability to 
articulate its importance to the public.
    Mr. Forbes. Well, gentlemen, thank you all so much for 
being with us. Thank you for your testimony and helping us to 
create this record.
    We look forward to talking with you in the future as these 
questions arise. But we really appreciate you spending your 
time today.
    And Mr. Courtney, if you have nothing else, then we are 
adjourned.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 11, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  
                                  [all]
</pre></body></html>
